            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
       STATE OF RHODE ISLAND
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001

     February 2003   A-77-03-00009




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   February 10, 2003                                                  Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:   Management Advisory Report: Single Audit of the State of Rhode Island for the Fiscal
           Year Ended June 30, 2001 (A-77-03-00009)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Rhode Island for the Fiscal Year ended June 30, 2001. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Rhode Island Auditor General performed the audit. The Department of Health and
        Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Auditor General and the reviews
        performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Rhode Island Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The Rhode
        Island Department of Human Services (DHS) is the Rhode Island DDS’ parent agency.
Page 2 - Candace Skurnik


The single audit reported the following findings:

1. The State did not have a statewide fixed asset inventory system; and therefore,
   could not identify equipment purchased with Federal funds. The corrective action
   plan indicated that physical inventories of existing assets were conducted and a
   compilation of fixed asset data was in progress (Attachment A, pages 1, 3, and 5).

2. DHS did not adhere to draw techniques specified in the Cash Management
   Improvement Act (CMIA) agreement for draws of Federal funds. The corrective
   action plan indicated that Federal cash management responsibilities may be
   centralized in one State department to ensure compliance with the CMIA agreement
   (Attachment A, pages 3, 4, and 6).

We recommend SSA ensure:

1. The DDS has a system in place to record fixed assets purchased with SSA funds.

2. DHS has implemented procedures for DDS draws of Federal funds in accordance
   with funding techniques established in the CMIA agreement.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

·   Controls were inadequate over the State Accounting System and the Payroll
    Accounting System regarding password access to computer systems (Attachment B,
    pages 1 and 2).

·   DHS did not have certifications to identify and exclude from its procurement process
    those subcontractors and subrecipients barred from participation in Federal
    programs (Attachment B, page 3 and 4).

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                          Steven L. Schaeffer

Attachments
                                                                                            Attachment A
                                                                                              Page 1 of 6
               SCHEDULE OF FINDINGS AND QUESTIONED COSTS
                     Section II - Financial Statement Findings



                                             Finding 2001-1

GENERAL FIXED ASSETS ACCOUNT GROUP

         The State has not accumulated historical information concerning the cost and classification of its
investment in fixed assets. This information is required by generally accepted accounting principles to be
presented in the General-Purpose Financial Statements by inclusion of a General Fixed Assets Account
Group. Due to the omission of the General Fixed Assets Account Group, we qualified our opinion on the
State's general-purpose financial statements.

         A statewide fixed asset inventory system is needed to provide adequate controls over the State's
substantial investment in fixed assets and to prepare financial statements in conformance with generally
accepted accounting principles. Further, Office of Management and Budget (OMB) Circular A-102
requires States to use, manage, and dispose of equipment acquired with federal funds in accordance with
state laws and procedures. The State's lack of adequate fixed asset inventory records impacted its ability
to identify equipment purchased with federal funds and to ensure compliance with its own procedures
regarding the use, management and disposition of all equipment.

         Policies and procedures have been developed and the process to inventory and accumulate fixed
asset information was underway during fiscal 2001. The State should continue its efforts to accumulate
and record the cost of all new fixed assets purchased and inventory and assign a value to all other assets.

        RECOMMENDATION

        2001-1            Continue to implement systems and procedures necessary to accumulate and
                         record the information needed to prepare financial statements in accordance with
                         generally accepted accounting principles.




                                             Finding 2001-2

CONTROL OVER LONG TERM OBLIGATIONS

        The State lacks adequate accounting controls to accumulate all long-term obligations for
inclusion in the General Long Term Debt Account Group within the general-purpose financial statements.
Controls are also inadequate to ensure all required payments are made when due.

        The State's debt service accounting system includes only information for certain general
obligation bonds (current-interest bonds), representing approximately one-half of the total obligations
reported in the General Long-Term Debt Account Group. Obligations not recorded

State of Rhode Island                                                   Fiscal Year Ended June 30, 2001
                                                                                       Attachment A
                                                                                         Page 2 of 6
              SCHEDULE OF FINDINGS AND QUESTIONED COSTS
               Section III - Federal Award Findings and Questioned Costs


                  TABLE OF FINDINGS BY FEDERAL PROGRAM (continued)

                                                                CFDA
                        Program Title                          Number        Applicable Findings

Student Financial Assistance Cluster: continued
         Federal Pell Grant Program                            84.063    01-29, 01-33
         Health Professions Student Loans, Including Primary   93.342    None Reported
           Care Loans/Loans for Disadvantaged Students
         Nursing Student Loans                                 93.364    None Reported
Title I Grants to Local Educational Agencies                   84.010    01-9, 01-27
Special Education Cluster:
         Special Education - Grants to States                  84.027    01-9, 01-27
         Special Education - Preschool Grants                  84.173    01-9, 01-27
Federal Family Education Loans (Guaranty Agency)               84.032    01-28
Rehabilitation Services - Vocational Rehabilitation Grants     84.126    01-8, 01-9, 01-34
         to States
Class Size Reduction                                           84.340    0l-9, 01-27, 01-35
Temporary Assistance for Need Families                         93.558    01-9, 01-12, 01-36, 01-37
Child Support Enforcement                                      93.563    01-8, 0l-9, 01-38, 01-39,
                                                                         01-40
Low-Income Home Energy Assistance                              93.568    01-9, 01-41, 01-42, 01-43
Community Services Block Grant                                 93.569    01-9, 01-44, 01-45
Child Care Cluster:
        Child Care and Development Block Grant                 93.575    0l-9, 01-44, 01-46
        Child Care Mandatory and Matching Funds of the         93.596    01-9, 01-46
        Child
            Care and Development Fund
Foster Care - Title IV-E                                       93.658    01-9, 01-47, 01-48
Social Services Block Grant                                    93.667    01-9, 01-45, 01-49
State Children's Insurance Program                             93.767    01-9, 01-50, 01-51
Medicaid Cluster:
        State Medicaid Fraud Control Units                     93.775    01-9, 01-52
        State Survey and Certification of Health Care          93.777    01-9
        Providers and Suppliers
        Medical Assistance Program                             93.778    01-9, 01-49, 01-51, 01-52,
                                                                         01-53, 01-54, 01-55, 01-56,
                                                                         01-57, 01-58, 01-59, 01-60
Block Grants for Prevention and Treatment of Substance         93.959    01-9, 01-61, 01-62
   Abuse
Disability Insurance/SSI Cluster:
        Social Security - Disability Insurance                 96.001    01-8, 01-9
        Research and Development Cluster                       Various   01-63


State of Rhode Island                                              Fiscal Year Ended June 30, 2001
                                                                                          Attachment A
                                                                                            Page 3 of 6
               SCHEDULE OF FINDINGS AND QUESTIONED COSTS
                Section III - Federal Award Findings and Questioned Costs



                                            Finding 2001-8

VARIOUS PROGRAMS - refer to TABLE OF FINDINGS BY FEDERAL PROGRAM

MANAGEMENT OF EQUIPMENT ACQUIRED WITH FEDERAL FUNDS

        As described in Finding 2001-1 (Section II - Financial Statement Findings), the State lacked
statewide systems and procedures to adequately control its substantial investment in fixed assets and to
prepare its financial statements in conformance with generally accepted accounting principles. This
impacted its ability to identify equipment purchased with federal funds and to ensure compliance with its
own procedures regarding the use, management and disposition of all equipment.

        Because of the lack of a statewide inventory system and related controls over fixed assets, we
were unable to test the State's compliance with the equipment management requirement. In most
instances, individual departments or agencies vested with responsibility for administering federal
programs also lacked controls to ensure compliance with these requirements.

Questioned Costs: None




                                            Finding 2001-9

VARIOUS PROGRAMS - refer to TABLE OF FINDINGS BY FEDERAL PROGRAM

CASH MANAGEMENT

        The State did not have adequate controls to ensure compliance with federal cash management
requirements in drawing cash for federal programs.

         The State is required to draw cash for federal programs in accordance with the federal Cash
Management Improvement Act (Act) and related regulations at 31 CFR Part 205. For most larger federal
programs, the State is required to follow the specific provisions of an agreement entered into by the State
and the US Treasury pursuant to the Act and related regulations. In the event the State does not comply
with the provisions of the Treasury/State agreement in drawing cash for federal programs, it must pay
interest for the period the funds were on hand prior to disbursement. For federal programs not included in
the agreement, the State is required to minimize the time elapsing between the transfer of funds from the
US Treasury and their disbursement, generally considered to be no more than a three-day supply of cash
on hand.


State of Rhode Island                                           Fiscal Year Ended June 30, 2001
                                                                                          Attachment A
                                                                                            Page 4 of 6
               SCHEDULE OF FINDINGS AND QUESTIONED COSTS
                Section III - Federal Award Findings and Questioned Costs


        The State developed the Cash Management System (CMS) as part of the State accounting system
to provide information enabling its departments and agencies to draw federal funds in compliance with
the Treasury/State agreement. Of the 22 programs we tested as major programs that are subject to the
Treasury/State agreement, eleven programs did not consistently adhere to the techniques specified in the
agreement to draw federal cash. In those instances where the techniques specified in the agreement were
not consistently followed, funds were generally drawn later than permitted.

        Each department is responsible for drawing federal funds for the programs it manages. The State
does not have procedures to centrally administer or monitor compliance with federal cash management
requirements.

        We believe responsibility for drawing federal funds should be vested in the Office of the General
Treasurer where compliance with cash management for federal programs should be integrated with other
cash management objectives. In instances where funds are now drawn less frequently than permitted,
compliance with the agreement will enhance the State's cash management. Further, overall compliance
with the agreement will minimize or eliminate any State interest liability payable to the federal
government.

Questioned Costs: None

        RECOMMENDATION

        2001-9           Implement a centralized monitoring system to ensure compliance with cash
                         management requirements. Vest responsibility for cash management of federal
                         programs with the Office of the General Treasurer.




                                            Finding 2001-10

FOOD DISTRIBUTION - CFDA 10.550
Administered by: Department of Corrections - State Warehouse
CHILD NUTRITION CLUSTER:
       School.-Breakfast Program - CFDA 10.553
       National School Lunch Program - CFDA 10.555
       Summer Food Service Program for Children - CFDA 10.559
       Administered by: Rhode Island Department of Education (RIDE)

INVENTORY OF DONATED FOOD COMMODITIES

      Under the Food Distribution grant (CFDA# 10.550), the USDA makes agricultural
commodities available for use in the operation of all child nutrition programs except the Special


State of Rhode Island                                           Fiscal Year Ended June 30, 2001
                                                                                            Attachment A
                                                                                              Page 5 of 6
                                      Corrective Action Plan -
                           Findings Included in 2001 Single Audit Report


                                             Finding 2001-1

Corrective Action:

The Division of Accounts and Control has issued statewide policies and procedures to record all new
fixed asset acquisitions since July 1, 1998. Two staff people have completed physical inventories of
existing fixed assets (excluding infrastructure) and the inventory of state owned land and buildings. The
state automobile fleet has been brought into the fixed asset reporting system. The accumulation of fixed
asset data is planned to be completed in phases: land and buildings; all other fixed assets; infrastructure
assets. This effort will be completed by June 30, 2002.

        Contact person:          Lawrence Franklin, Jr., State Controller
                                 Telephone: 401-222-6731; Fax: 401-222-6437;
                                 e-mail:lfrankli@doa.state.ri.us


                                             Finding 2001-2

Corrective Action:

The Department of Administration has acquired new integrated, accounting software. The software we
acquired does not have a module for debt and debt service accounting. We will be researching the
functionality of other commercial, off-the-shelf software for this purpose to integrate with our general
accounting software. Presently, the implementation of the general accounting software is underway and
is planned to be implemented statewide at July 1, 2001. During this implementation, the Division of
Accounts and Control will research debt accounting software, prepare a budget request to acquire it, and
plan its implementation.

        Contact person:           Lawrence Franklin, Jr., State Controller
                                  Telephone: 401-222-6731; Fax: 401-222-6437;
                                  e-mail:lfrankli@doa.state.ri.us


                                             Finding 2001-3

Corrective Action:

No corrective action is planned since a new statewide accounting system was implemented July 1, 2001.

        Contact person:           Lawrence Franklin, Jr., State Controller
                                  Telephone: 401-222-6731; Fax: 401-222-6437;
                                  e-mail:lfrankli @doa.state.ri.us



State of Rhode Island                                                   Fiscal Year Ended June 30, 2001
                                                                                            Attachment A
                                                                                              Page 6 of 6
                                      Corrective Action Plan -
                           Findings Included in 2001 Single Audit Report



                                              Finding 2001-8

Corrective Action:

See Corrective Action for Finding 2001-1.


                                              Finding 2001-9

Corrective Action:

The Department of Administration will continue to explore with the General Treasurer the possibility of
vesting responsibility for federal cash management within the Office of the General Treasurer.

        Contact person:           Lawrence Franklin, Jr., State Controller
                                  Telephone: 401-222-6731; Fax: 401-222-6437;
                                  e-mail:lfrankli@doa.state.ri.us


                                              Finding 2001-10

Corrective Action:

1.      Conduct of monthly physical inventory of all USDA commodities, and will reconcile
        discrepancies as needed.

        This procedure had been put in place in the last fiscal year. However, whenever there is any staff
        absences during the time set aside for inventorying the remaining staff are invariably pulled away
        from inventorying in order to perform other "immediate need" warehouse duties. The
        Department will be unable to establish an immediate backup plan due to the current state
        revenues fiscal situation. However, the Department is moving ahead with a plan to enhance the
        staffing of the Central Distribution Center through the utilization of inmate assistance. This plan
        may take up to a year to be fully implemented. Once implemented, we will be able to insure that
        staff are available for this regular physical inventorying requirement.

2.      Reduction of order filling errors.

        Ideally, there are three points of verification of proper order filling.

        1. The warehouse worker selects the proper items.
        2. The warehouse supervisor verifies that the items selected match the items requested.



State of Rhode Island                                                     Fiscal Year Ended June 30, 2001
                                                                                   Attachment B
                                                                                     Page 1 of 4
              SCHEDULE OF FINDINGS AND QUESTIONED COSTS
                    Section II - Financial Statement Findings


in the debt service accounting system include capital appreciation bonds, multi-modal rate
bonds, lease obligations, certificates of participation, compensated absences, and arbitrage
rebate liabilities. The debt service accounting system is incapable of accepting data for certain
categories of long-term obligations and consequently these obligations are recorded on a
variety of independent subsystems without centralized control.

        A new subsidiary accounting system is required to capture all categories of long-term
obligations, detail all debt service requirements to maturity and prompt payments on the
required dates. This subsidiary accounting system should be capable of interfacing with the
new statewide accounting system implemented July 1, 2001. This will provide information
necessary for financial reporting purposes, and generally improve control over the State's
long-term obligations.

       RECOMMENDATION

       2001-2           Acquire a new subsidiary accounting system to account for all long-term
                        general obligations of the State and improve controls over financial
                        reporting and debt service payments.




                                        Finding 2001-3

PASSWORD ACCESS CONTROLS OVER THE STATE ACCOUNTING SYSTEM

        The Government On-Line Data Entry Network (GOLDEN) component of the State
accounting system is used to process disbursements to vendors and record receipts. The
GOLDEN system allows data entry of vendor payment information at the agency level rather
than at the Office of Accounts and Control.

       We found the GOLDEN system lacks adequate controls to ensure that user access is
necessary, appropriate to their duties, and sufficiently restricted. These controls are important
to maintaining adequate security of any computer system application. We found the following
instances of individuals with inappropriate system access.

       ▀   Certain computer programmers in the Office of Library and Information Services
           have access to the GOLDEN system which provides them with the ability to prepare
           and approve disbursements as well as prepare and approve receipt vouchers.
           Programmers should not have continued access to the system once it is placed in
           production but instead should only have access to a test system where system
           modifications are designed and tested before production.



State of Rhode Island                                        Fiscal Year Ended June 30, 2001
                                                                                       Attachment B
                                                                                         Page 2 of 4
                     SCHEDULE OF FINDINGS AND QUESTIONED COSTS
                        Section II - Financial Statement Findings


       ▀   Certain accounting personnel in the Office of Accounts and Control have access
           allowing them to both initiate and approve vouchers for payment.

        Segregation of duties is maintained in the State accounting system by requiring
agencies to prepare vouchers on-line but submit a signed and authorized hard-copy voucher,
along with supporting documentation, to the pre-audit section within the Office of Accounts and
Control. The pre-audit section reviews the voucher and supporting documentation, checks for
appropriate authorized signature and approves vouchers for payment. Segregating voucher
preparation from the pre-audit approval function is a key internal control in the State accounting
system. No individual should have the ability to both initiate and approve the same transactions
within the accounting system.

       These control weaknesses existed during fiscal 2001, however, new control procedures
are operational with the implementation of new statewide accounting system on July 1, 2001.


                                        Finding 2001-4

PASSWORD ACCESS CONTROLS OVER THE PAYROLL ACCOUNTING SYSTEM

     Payroll data for the majority of State employees is entered on-line to the payroll
accounting system at the department or agency level.

       We reviewed the controls over data entry for the State payroll accounting system and
found that established procedures do not mandate the assignment of unique passwords for
each user to control and restrict access to the system. Computer work stations used to enter
payroll data at some larger State agencies were not in secure locations. Further, the existing
password control system does not record password information within the data files to identify
individuals making specific file changes thereby providing a clear audit trail.

     System access controls need to be improved by requiring each user to have a unique
password and by utilizing the password to track all transactions initiated by an individual user.

       RECOMMENDATIONS

       2001-4a         Require that each individual have a unique password to appropriately
                       restrict access to the system.

        2001-4b        Capture and maintain the employee's unique password within the
                       transaction file to specifically identify transactions by individual user.




State of Rhode Island                                          Fiscal Year Ended June 30, 2001
                                                                                   Attachment B
                                                                                     Page 3 of 4
              SCHEDULE OF FINDINGS AND QUESTIONED COSTS
               Section III - Federal Award Findings and Questioned Costs


                                                      Number of
                                Hospital fiscal
                                                  settlement reports
                                year ending in:
                                                   not yet received
                                    1994                   1
                                    1995                   1
                                    1996                   3
                                    1997                   5
                                    1998                   9
                                    1999                  10

       Most hospitals claim that staffing limitations prevent them from filing cost reports timely.
The section of the General Laws requiring settlement reports provides no mechanism to enforce
compliance.

Questioned Costs: None

       RECOMMENDATION

       2001-57          Seek enforcement authority within the General laws to improve the
                        timeliness of hospital settlements.



                                       Finding 2001-58

MEDICAL ASSISTANCE PROGRAM - CFDA 93.778
Administered by: Department of Human Services, (DHS)

SUSPENSION AND DEBARMENT

        DHS utilizes various service providers and contractors for the operation of the Medical
Assistance Program. Federal regulations prohibit States from contracting with or making
subawards under covered transactions to suspended or debarred parties. Covered transactions
include procurement contracts for goods or services equal to or exceeding $100,000 and all
nonprocurement transactions (e.g., subawards to subrecipients). Contractors receiving
individual awards for $100,000 or more and all subrecipients must certify that the organization
and its principals are not suspended or debarred.

The department included provision for suspension and debarment certifications in its standard
contracts effective in January 2000, however, most contracts will not be compliant with this
provision until renewal.



State of Rhode Island                                         Fiscal Year Ended June 30, 2001
                                                                                    Attachment B
                                                                                      Page 4 of 4
              SCHEDULE OF FINDINGS AND QUESTIONED COSTS
               Section III - Federal Award Findings and Questioned Costs


         Previously, the department had not required providers of medical services to certify that
the organization and its principals are not suspended or debarred from participating in the
Medical Assistance Program. Revised provider agreements including the suspension and
debarment certifications were mailed to all providers in November 2000. During our testing of
claims paid in fiscal 2001, we found that 46 out of 91 providers tested did not have updated
provider agreements in place which contained the required suspension and debarment
certifications.


Questioned Costs: None


       RECOMMENDATION

       2001-58          Review and strengthen procedures designed to ensure current
                        agreements containing the required suspension and debarment
                        certifications are in place for all providers.




                                       Finding 2001-59

MEDICAL ASSISTANCE PROGRAM - CFDA 93.778
Administered by: Department of Human Services (DHS)

DRUG USE REVIEW PROGRAM

       Federal regulation (42 CFR 456.712) requires the State to prepare and submit, on an
annual basis, a report summarizing specific information regarding the agency's Drug Use
Review Program. Examples of the types of information required include a description of the
nature and scope of the prospective and retrospective drug review programs, a summary of the
educational interventions used, and an outline of the objectives, scope, and goals of the drug
use review and surveillance and utilization functions.

       DHS has not submitted the required reports for fiscal years 1998, 1999 and 2000.

Questioned Costs: None

       RECOMMENDATION

       2001-59          Prepare and submit the required Medicaid Drug Use Review Agency
                        Report annually.


State of Rhode Island                                         Fiscal Year Ended June 30, 2001
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                            Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
